OFFICE OF INSPECTOR GENERAL




AUDIT OF USAID/IRAQ’S
LOCAL GOVERNANCE
PROGRAM II ACTIVITIES
AUDIT REPORT NO. E-267-09-003-P
May 31, 2009




BAGHDAD, IRAQ

Office of Inspector General


May 31, 2009

MEMORANDUM

TO:       	          Acting USAID/Iraq Mission Director, Thomas R. Delaney

FROM: 	              Director, Office of Inspector General/Iraq, Gerard M. Custer /s/

SUBJECT:	            Audit of USAID/Iraq’s Local Governance Program II Activities
                     (Audit Report No. E-267-09-003-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and modified the report language as appropriate.
Your comments are included in their entirety as appendix II.

The report contains five recommendations for corrective action. On the basis of your written
comments, in which you described actions planned or already taken to address our concerns,
we consider that final action has been taken on recommendations 1 and 3 and that
management decisions have been reached on recommendations 2, 4, and 5. A determination
of final action will be made by the Audit Performance and Compliance Division upon completion
of the planned corrective actions for recommendations 2, 4, and 5.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
USAID/Iraq/OIG
APO, AE 09316
www.usaid.gov/oig
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


Training Courses Need Increased Oversight 

by USAID/Iraq ................................................................................................................... 7


USAID/Iraq Needs to Implement Controls to 

Minimize Repetitive Training ............................................................................................. 9 


USAID/Iraq Needs to Develop Criteria for 

Selecting Trainees .......................................................................................................... 11 


Contractor Performance Review Process 

Needs Better Methodology.............................................................................................. 13 


     Contractor Performance Reviews Need 

     Timely Preparation .................................................................................................... 13 


     Contractor Performance Reviews 

     Should Accurately Reflect Contractor
     Performance.............................................................................................................. 14 


Evaluation of Management Comments ....................................................................... 16 


Appendix I—Scope and Methodology......................................................................... 18 


Appendix II—Management Comments........................................................................ 20 


Appendix III—Reported Performance Results ........................................................... 24 

SUMMARY OF RESULTS

Iraq does not have a history of local self-governance like that of the United States or
other Western democracies. Under the authoritarian, centralized rule of the Ba'ath
Party, local communities were unable to develop an administrative capacity to deliver
services to their citizens, prepare or execute budgets, or effectively manage the
challenges confronting them (page 3).

To address the lack of experience in local and decentralized self-governance,
USAID/Iraq developed the Local Governance Program—Phase II, commonly referred to
as LGPII. Started in May 2005, this $370 million program was designed to consolidate
gains made during the first Local Governance Program, which ran from 2003 to 2005,
and to continue working with Iraqis to establish and strengthen the conditions,
institutions, capacity, and legal and policy framework for a democratic local governance
system. It was partially successful in doing so (pages 3 and 5).

In particular, LGPII achieved some success with the technical assistance and training
that it had provided to Iraq’s provincial councils. For example, 16 of 18 provincial
councils had met criteria for functioning. In addition, each provincial council had
finalized provincial development strategies for use as their provinces’ public investment
plans, and 16 of 18 councils had invested in projects listed in their respective provincial
development strategies. Further, in the first 9 months of the year 2008, the provincial
governments had contracted 60 percent of $3.34 billion in capital budget funds that had
been assigned to them by the national Iraqi Government (page 5).

LGPII also aimed to strengthen local governance by building the capacity of local council
members and Iraqi governmental officials. However, USAID/Iraq did not establish
criteria for selecting recipients of training and, moreover, approved a demand-driven and
decentralized approach that essentially allowed Iraqi officials to enroll in whatever
training courses they felt would benefit them. Consequently, approximately 27,000
Iraqis received training, but the success or short-term impact of that significant amount
of training on improving local governance was not measured. In addition, controls to
prevent officials from taking courses more than once had not been established. As a
result, officials misused the training program by taking some courses multiple times
(pages 5, 9, and 10).

Besides providing training and technical assistance to provincial and local Iraqi officials,
LGPII also aimed to use Geographic Information System software to produce city maps
with utility overlays to help plan for the delivery of essential services. However, progress
in training Iraqi officials to use the software and develop the maps was slow. As of
September 30, 2008, only two provinces had completed city property boundary maps,
but neither of those maps included overlays showing utilities such as electricity, sewage,
and water networks (page 6).

LGPII’s project activities largely ended on December 31, 2008. This report contains five
recommendations that should be addressed during LGPII’s follow-on project, the Local
Governance Program—Phase III (LGPIII). OIG recommends that USAID/Iraq:

   •   Increase its oversight of training courses by approving curriculums of courses


                                                                                      1
        offered to Iraqi Government officials.
   •	   Implement controls to ensure that repetitive trainings are minimized.
   •	   Develop criteria for identifying and selecting participant trainees.
   •	   Prepare contractor performance reviews promptly.
   •	   Establish policies and procedures to ensure that the reviews portray the actual
        performance of its contractors (pages 9–15).

In response to our draft report, USAID/Iraq concurred with each of the five
recommendations. On the basis of the mission’s response, final actions have been
taken on recommendations 1 and 3, and management decisions have been reached on
recommendations 2, 4, and 5 (see page 16). The mission’s written comments on the
draft report are included in their entirety as appendix II to this report (see page 20).




                                                                                   2
BACKGROUND

Iraq does not have a history of local self-governance like that of the United States or
other Western democracies. Under the authoritarian, centralized rule of the Ba’ath
Party, local communities were unable to develop an administrative capacity to deliver
services to their citizens, prepare or execute budgets, or effectively manage the
challenges confronting them. As a result, local government officials and civil servants
never learned how to assess local needs effectively, develop priorities among competing
needs, or translate these priorities into realistic budgets and service delivery plans.
Moreover, other than the appointed officials, citizens never participated in or interfaced
with local government, and they did not understand the principles and processes of
democratic governance.

To address this lack of experience in local and decentralized self-governance,
USAID/Iraq developed the Local Governance Program—Phase II, commonly referred to
as LGPII, and awarded a 2-year, $90 million base contract to the Research Triangle
Institute (the contractor) in May 2005. The contract had 3 option years, 2 of which have
been exercised, extending the contract through 2009. Including the option years, the
award had increased to $370 million, and as of November 19, 2008, $290 million had
been disbursed.

The objectives of the LGPII activities were to consolidate gains made during the first
Local Governance Program, from 2003 to 2005, and continue to work with Iraqis to
establish and strengthen the conditions, institutions, capacity, and legal and policy
framework for a democratic local governance system. The program focused on creating
the capacity to govern at the provincial and lower levels through the following activities:

   •	 Promote policy reform in support of local governance.
   •	 Support clarification of the roles and responsibilities of different levels of
      government.
   •	 Promote increased efficiency of local service delivery.
   •	 Assist in the development of regularized mechanisms of citizen participation in
      governmental decisionmaking processes.
   •	 Capture learning through systematic study and reflection.

In carrying out these activities, LGPII focused primarily on training members of provincial
and local councils along with other local government officials.

The mission had also signed an agreement with the contractor to implement the third
phase of the program, LGPIII, effective January 1, 2009, through December 31, 2010,
for approximately $145.5 million.




                                                                                     3
                      Figure 1. Map of the 18 Provinces in Iraq




  Source: USAID/Iraq



AUDIT OBJECTIVE
As part of its fiscal year 2008 annual audit plan, the Office of Inspector General in Iraq
conducted this audit to answer the following question:

   •	 Are USAID/Iraq’s local governance activities achieving intended results and what
      has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    4
AUDIT FINDINGS

USAID/Iraq’s Local Governance Program—Phase II (LGPII) was partially successful in
strengthening Iraq’s emerging and fragile local governance system. In particular, the
program achieved some success with the technical assistance and training that it
provided to Iraq’s 18 provincial councils.

LGPII’s technical assistance to the provincial councils primarily included a set of basic
and intermediate training courses that were offered to council members. Courses titles
included, among others, Introduction to Council Services, Public Budgeting and Auditing,
Strategic Planning, and Government–Media Relationship.               Despite the harsh
environment caused by the Iraqi insurgency, the provincial councils benefited from the
courses, and 16 of 18 councils met criteria for functioning.1

In addition, each of Iraq’s 18 provincial councils had finalized provincial development
strategies for use as their provinces’ public investment plans, and 16 of the 18 councils
had invested in projects listed in their respective provincial development strategies.
Further, in the first 9 months of the year 2008, the provincial governments had
contracted 60 percent of the $3.34 billion2 in capital budget funds that had been
assigned to them by the national Iraqi Government.

Despite such progress, only three provincial councils could show that more than 50
percent of their members demonstrated the performance of key competencies, such as
the use of parliamentary systems and processes and the management and oversight of
accelerated reconstruction and development program funds. Mission officials explained
that the program may have been overly ambitious in expecting Iraq’s provincial councils
to use parliamentary systems similar to state legislatures in the United States, because
the councils had very limited legal powers and functioned more analogously to those of
town councils. However, mission officials felt that the oversight of reconstruction and
development funds was within the manageable interest of the councils.

In addition to building the capacity of the provincial councils, LGPII also aimed to
strengthen local governance by building the capacity of local council members and Iraqi
governmental officials. However, while training these individuals, USAID/Iraq did not
establish any basic training criteria or parameters to determine which Government
officials should be trained or which type of training they needed. Instead, the mission
approved a demand-driven and decentralized approach that essentially allowed Iraqi
officials to enroll in whatever training courses they felt would benefit them. As a result,
the implementing partner’s training program eventually grew to include over 100 varied
training courses. Mission officials were not familiar with all the courses being offered,
and the relationship between the courses and LGPII’s goals was sometimes unclear.

1
  The implementing partner defined a “functioning” provincial council as satisfying the following:
(1) written minutes or video documentation of meetings; (2) quorum present for at least 70
percent of meetings; (3) progress on developing provincial development strategy, annual work
plan, and budget and/or capital investment project approval and execution; (4) appointment of a
provincial governor by provincial council; and (5) filling any provincial council seats that became
vacant.
2
  Unaudited. Source: Iraq’s Ministry of Planning and U.S. Embassy Iraq’s Office of Provincial
Affairs.


                                                                                             5
In addition to allowing Iraqi officials to enroll in whatever training courses they felt would
benefit them, the implementing partner did not establish controls to prevent officials from
taking courses more than once. Consequently, Iraqi governmental officials, including
elected provincial and local council members, misused the training courses by taking
some courses multiple times.

Further, although the raw number of local officials trained was significant and
measurable (26,6003), the success or short-term impact of that significant amount of
training on improving local governance was not measured. However, from a longer-
term perspective, mission officials said the training courses would build valuable
relationships between USAID and the local governments.

Besides providing training and technical assistance to provincial and local Iraqi officials,
LGPII also aimed to use Geographic Information System (GIS) software to produce city
maps with utility overlays to help plan for the delivery of essential services. However,
progress in developing the maps has been slow. As of September 30, 2008, only two
provinces had completed city property boundary maps, but neither of those maps
included overlays showing utilities such as electricity, sewage, or water networks.
Mission officials said that the program’s investment in a high-tech system like GIS may
have been premature, but they felt that significant progress had been made in Baghdad
City, which had invested $2 million of its own resources to supplement training and
equipment provided by LGPII.

LGPII also aimed to help Iraqis promote policy reforms by providing support and
technical assistance to the Local Government Association, which is composed of
provincial council members from each of Iraq’s 18 provinces. However, the association
had not yet achieved two planned milestones related to local government interaction with
the national Iraqi Government. The milestones included (1) a Provincial Fiscal
Decentralization Law, to be drafted by the provincial councils, and (2) a legislative
agenda, to be developed by the Local Government Association. Mission officials said
that although the association was influential in drafting the law that established Baghdad
as the capital of Iraq, the association remained a nascent, donor-driven organization and
that original expectations of its influence on policy decisions pertaining to
decentralization and its ability to develop a legislative agenda were not realistic.

LGPII’s project activities largely ended on December 31, 2008, and consequently, we
are not making specific audit recommendations to address the performance issues
concerning GIS software or the Local Government Association. We are also not making
a recommendation for the mission to redesign and refocus the training program offered
under LGPII’s follow-on project, LGPIII, because the mission has already taken action to
do so.

During the design of that project, which began on January 1, 2009, mission officials
recognized and acknowledged that the broad training mandate that they had approved
for LGPII needed to be modified. Consequently, they designed LGPIII to focus on
assisting provincial governments in carrying out their duties as prescribed by the 2008
Provincial Powers Law. LGPIII will still include training, but only as one tool among
many to help provincial governments measurably improve performance.

3
    Unaudited. Source: Research Triangle Institute.


                                                                                        6
Although USAID/Iraq has redesigned its Local Governance Program, we identified some
additional areas that could be improved. For example, during LGPIII USAID/Iraq should
(1) increase its oversight of training courses by approving curriculums of courses offered
to Iraqi governmental officials, (2) implement controls to minimize repetitive training, (3)
develop criteria for identifying and selecting participant trainees, and (4) prepare timely
and accurate annual contractor performance reports. Each of these issues is discussed
below.


Training Courses Need
Increased Oversight by
USAID/Iraq

  Summary: As of October 2008, LGPII was offering 105 training courses, some with
  multiple modules per course, for Iraqi provincial and local council members and
  local governmental staff. According to USAID’s Automated Directives System
  253.2(b), missions and their implementing partners are responsible for ensuring
  that participant training contributes to the achievement of the mission’s intermediate
  results or strategic objective. However, the relationship of some LGPII courses to
  the mission’s goals was not clear because the mission largely relied on its
  implementing partner to determine which training courses to offer and did not
  exercise its management oversight responsibility to ensure that only the most
  needed, relevant, and project-focused training was provided. Consequently, the
  partner spent project resources to develop and teach courses that may not produce
  the most benefits for the mission or for Iraqi governmental officials in the long term.

A primary goal of LGPII involved the development of the Iraqi Government’s capacity to
deliver essential local services. To help achieve this goal, USAID/Iraq’s implementing
partner had developed 17 core courses, including 12 basic and 5 intermediate courses,
that aimed to provide members of provincial councils and local councils with the training
they needed to perform their duties as council members. Course titles included
Introduction to Council Services, Citizen Participation, Project Oversight, Public
Budgeting and Auditing, Intergovernmental Relationships, and Strategic Planning.

In addition to the 17 core courses, 88 supplemental training courses were offered,
because some of the core and supplemental courses had multiple modules per course.
These courses were designed as optional, on-demand training to address the varying
needs of council members and local government officials to extend their skills and
competence. The courses covered subjects such as general and financial management,
transparency and accountability, agricultural development, computer skills, and gender
mainstreaming. As of October 2008, 105 core and supplemental courses were available
to Iraqi governmental officials.

According to an official from the implementing partner, USAID/Iraq and the contractor
had collaborated at the start of LGPII to determine which basic courses should be
developed for provincial and local council members. Since that time, however, the
number of training courses has increased substantially, but the mission's involvement in



                                                                                      7
the training curriculum has been minimal and it has neither specifically approved nor
disapproved any of the supplemental training courses.

The contractor official further explained that provincial and local council members had
asked for more advanced and specialized training. To meet these training requests, the
contractor had developed the core intermediate courses and supplemental courses.

Although all training courses provide some benefit, several of the 88 supplemental
courses did not have a clear relationship to LGPII’s goal to increase the government’s
capacity to deliver essential services. Examples of such courses were:

     •	 Agricultural development courses including Drip Irrigation, Sprinkler Irrigation,
        Design of Open Channels, Pesticides, Soil Sampling, and Fertilizers.
     •	 Computer skills courses including Yahoo Messenger, Yahoo Email, MSN
        Messenger, and Hotmail.
     •	 Project implementation courses such as Bill of Quantities for Civil Construction
        and Quality Control of Concrete.

In addition, some courses benefited only a few people. As illustrated in Figure 2, 45
percent of the course modules were attended by fewer than 200 trainees nationwide
between May 2005 and September 2008.

                         Figure 2. Analysis of Course Attendance Rates 

                                   May 2005–September 2008 





                                                            17%
                                                                                        0 trainees
                                                                                        1–100 trainees
                                                                         15%
                                                                                        101–200
          55%                                                                         > 201 trainees

                                                               13%




This pie chart illustrates that 17 percent of courses were not attended by any trainees; 15 percent were attended by 1 to
100 trainees; 13 percent were attended by 101 to 200 trainees; and 55 percent were attended by more than 200 trainees.


Through the end of September 2008, LGPII had provided training to over 28,000
individuals. A course’s attendance rate of 200 would constitute only 0.7 percent of those
who received training. Using LGPII resources to develop and teach these poorly
attended courses was not an efficient use of the project’s resources.




                                                                                                                  8
The LGPII contract provides general guidance on the type of training to be given and
states that capacity building and service delivery assistance should include some
variation of the following areas:

•    Project analysis
•    Institutional and intergovernmental coordination
•    Strengthening of local government associations
•    Improved citizen participation in government decisionmaking
•    Public services management indicators
•    Institutional alternatives for providing municipal public services
•    Improved administrative processes and attention to the public
•    Public hearings (including budget hearings)
•    Financial management and budgeting
•    Resource management and physical planning
•    Information systems for management
•    Enhanced role of the private sector in the provision of local public services
•    Development of a citizen services center

The mission should have been more proactive in the development of LGPII’s training
courses and should have provided more specific training guidance in the implementing
partner’s contract. Instead, the mission relied on its implementing partner to determine
which training courses to offer and did not exercise its management oversight
responsibility to ensure that only the most needed, relevant, and project-focused training
was provided. Consequently, the partner spent project resources to develop and teach
courses that may not produce the most benefits for the mission or for Iraqi governmental
officials in the long term.

Because capacity building and training are included in the LGPII’s follow-on project,
LGPIII, which began January 1, 2009, and LGPIII was awarded to the same
implementing partner, we are making the following recommendation:

     Recommendation No. 1: We recommend that, under the Local Governance
     Program—Phase III, USAID/Iraq specifically review and approve any training
     course proposed by its implementing partner to be offered to Iraqi governmental
     officials.

USAID/Iraq Needs to Develop
Controls to Minimize Repetitive
Training

    Summary: Internal control serves as the first line of defense in safeguarding assets
    and preventing and detecting errors and fraud and helps managers achieve desired
    results through effective stewardship of public resources. Although controls should
    be in place to ensure that resources are being used efficiently, LGPII did not always
    have such controls over its training programs. Consequently, Iraqi governmental
    officials, including elected provincial and local council members, misused the
    training courses by taking some courses multiple times.




                                                                                      9
According to the General Accountability Office’s Standards for Internal Control in the
Federal Government, internal control is a major part of managing an organization. It
comprises the plans, methods, and procedures used to meet missions, goals, and
objectives and, in doing so, supports performance-based management. It also states
that internal control serves as the first line of defense in safeguarding assets and
preventing and detecting errors and fraud. In short, internal control helps managers
achieve desired results through effective stewardship of public resources and provide
reasonable assurance that project objectives are being achieved.

Although controls should be in place to ensure that resources are used efficiently, LGPII
did not always have sufficient controls over its training programs. Consequently, 413 of
2,542 sampled trainees (16 percent), including elected provincial and local council
members, misused the training program by repeating courses three or more times. To
illustrate:

•	 A member of the Wasit Provincial Council took the Media Training Introductory
   course four times in 2006 and 2008, twice in each year.
•	 A member of the Najaf Provincial Council took the Building Council Ground Rules
   course four times in 2007.
•	 A member of the Babil Provincial Council took the Human Rights and Prisoner’s
   Rights course four times in 2007.
•	 Within Baghdad, a member of the Istiklal Qada Regional District Council took the MS
   Excel course 4 times and MS Word 12 times during calendar years 2007 and 2008.

Contractor officials offered several general reasons for why an individual might take a
course more than once. These reasons included:

   •	 Some trainees came from very simple educational and professional
      backgrounds. They were nominated to attend the course twice to make sure that
      they were exposed to various levels of practical sessions and workgroups.
   •	 In some provinces, the security situation prevented many trainees from
      completing their courses. In such cases, trainees were nominated to repeat the
      course.
   •	 Some training workshops were used as a vehicle to teach problem solving—to
      create implementation plans, discuss the plans, and monitor and modify them.
      Certain members were nominated to participate more than once to follow up on
      the problem-solving and planning processes.

We agree that allowing an individual to retake a course is not unreasonable in some
circumstances and can be beneficial if it gives the individual a better opportunity to
master a course’s material. However, allowing officials to repeat training courses
multiple times without sufficient management control wastes the project’s resources. It
can also lead to misuses in the training program, such as when some participants were
paid $15 to reimburse them for their transportation expenses to the training courses.
This monetary incentive, albeit small, could have motivated individuals to repeat certain
courses.

A limited analysis showed that repeat trainings occurred in each of Iraq’s 18 provinces
but were concentrated in 9 of them. Table 1 lists the nine provinces and shows that the




                                                                                  10 

mission will continue providing capacity building and training programs in seven of these
nine provinces under LGPIII.

Table 1. Comparison of Provinces Where Extensive Repetitive Training Occurred
Under LGPII and Provinces Where the Mission Plans to Give Training Under LGPIII
                      Repetitive Training Given     Training to Be Provided
     Province         Extensively During LGPII           During LGPIII
 1. Babil                        Yes                          Yes
 2. Baghdad                      Yes                          Yes
 3. Diyala                       Yes                          Yes
 4. Erbil                        Yes                           No
 5. Karbala                      Yes                          Yes
 6. Najaf                        Yes                          Yes
 7. Diwaniyah                    Yes                           No
 8. Salah ad Din                 Yes                          Yes
 9. Wasit                        Yes                          Yes

Because repeat training was provided in excess in seven of the eight provinces where
the mission will provide additional training under LGPIII, it is critical for the mission to
implement controls to ensure that LGPIII training is not misused and that repeat training
is not given to individuals unless justified.

   Recommendation No. 2: We recommend that USAID/Iraq develop and
   implement controls under Local Governance Program—Phase III to ensure that
   training participants do not take training courses more than once unless justified.


USAID/Iraq Needs to
Develop Criteria for
Selecting Trainees

  Summary: USAID’s Automated Directives System, chapter 253, provides guidance
  on training and capacity development programs and requires that selection criteria
  be developed to ensure that individuals selected for training have the greatest
  potential to contribute to USAID’s development objectives. USAID/Iraq officials had
  not developed any such criteria, however. Instead, they used a decentralized
  approach that allowed council chairmen and training managers in the field to
  identify and select trainees. Consequently, individuals such as teachers, students,
  and hospital workers received training courses but without evidence that their
  training contributed to USAID/Iraq’s development objectives.

USAID’s Automated Directives System, chapter 253, “Training for Development,”
contains procedures governing the design and implementation of training and capacity
development programs.       It states that USAID strategic objective teams and
implementers, working with the host country and private sector counterparts or
stakeholders, should agree on selection criteria that conform to USAID-wide guidelines
and meet the requirements of the country, the development activity, and the strategic
objective. It also states that the selection criteria should ensure the selection of



                                                                                     11 

individuals who have the greatest potential to bring about change and contribute
substantially to the development objectives of USAID and the host country.

Contrary to the above requirement, no criteria were developed for selecting individuals
for training. Instead, USAID/Iraq officials used a decentralized approach that allowed
training managers and council chairmen in the field to approve individuals for training
using their own criteria for selecting training candidates. Consequently, various
individuals, such as teachers, students, and hospital workers, attended LGPII training
courses, but it was not clear whether they were the intended beneficiaries of the
courses. For example:

   •	 Professors, managers, and consultants at Kirkuk University took courses such as
      AutoCAD training and Provincial Development Strategy (PDS) Strategic
      Planning/Preparation.
   •	 Teachers and experts at Salah ad Din University in Erbil took courses such as
      PDS Strategic Planning and Basic Management.
   •	 Employees at Ana Hospital in Anbar took National Governates Law training.
   •	 Personnel at Azady Hospital in Dahuk took courses such as Time Management
      for Public Officials and Provincial Budget Development.
   •	 Students at the High Planning Institute in Dahuk and students at Sulaymaniyah
      University took courses in PDS Strategic Planning, Economic Development, and
      Microsoft Excel.
   •	 Teachers at the Al Karama Secondary School for Girls in Dhi Qar took courses
      such as Women’s Political Participation and Effective Leadership.
   •	 Teachers at the Ailool School in Dahuk took courses such as Basic Management
      and Introductory Media Training.
   •	 Staff in the X-ray section of the Hivi Hospital and General Hospital in Dahuk took
      courses such as Basic Management, Media Training Introductory, and Microsoft
      Word and Excel.

Although the training courses noted above may have benefited the recipients in their
respective professions, it was not evident how their training contributed to USAID/Iraq’s
development objectives.

Because USAID/Iraq and the implementing contractor exercised little or no control over
the training program, training managers in the field largely decided what training to offer.
With no criteria for selecting training participants, council chairmen could select
whomever they wanted for training. Consequently, project resources were used
inefficiently and individuals were trained who were not intended beneficiaries of the
Local Governance Program.

   Recommendation No. 3: We recommend that USAID/Iraq require its Local
   Governance Program—Phase III implementing contractor to develop criteria for
   selecting training participants and to implement controls to ensure compliance
   with the selection criteria.




                                                                                     12 

Contractor Performance Review Process
Needs Better Methodology

     Summary: According to the Office of Management and Budget’s best practices for
     collecting and using current and past performance information, a final assessment
     must be prepared for contract actions upon completion of the contract or order. If
     the performance period exceeds 18 months, the contracting officer should conduct
     interim assessments at least every 12 months. However, for the third year in a
     row, USAID/Iraq has not produced a timely, relevant contractor performance review
     for the implementing partner of its Local Governance Program. In addition to being
     late, the performance reviews have also demonstrated inconsistent evaluations of
     the contractor’s performance. Without timely, relevant reviews, USAID/Iraq may be
     unable to evaluate its options effectively during the selection process for new
     contracts or take corrective action to safeguard taxpayer money.

Contractor Performance Reviews Need Timely Preparation. Federal Acquisition
Regulation, subpart 42.15, “Contractor Performance Information,” provides policies and
establishes responsibilities for recording and maintaining contractor performance
information. USAID’s Acquisition and Assistance Policy Directive 06-05, “Evaluation and
Use of Contractor Performance Information,” provides consolidated guidance on the
evaluation and use of that information. The directive requires contracting officer’s
technical representatives to evaluate contractor performance at least annually and upon
contract completion, in part to provide information for future source selection and other
acquisition decisions.

The Office of Management and Budget’s best practices for collecting and using current
and past performance information state that a final assessment must be prepared for
contract actions upon completion of the contract or order. If the performance period
exceeds 18 months, the contracting officer should conduct interim assessments at least
every 12 months. Despite the contractor’s annual performance period ending in May
2008, USAID/Iraq did not complete a contractor performance review until November
2008. This is the third consecutive instance in as many years that OIG has identified
this as an issue.

In July 2006, OIG found that no contractor performance review had been performed on
LGPII’s contractor and recommended that USAID/Iraq’s Office of Acquisition and
Assistance adopt procedures to ensure that contractor performance evaluations are
prepared as required by the Federal Acquisition Regulation and USAID’s Automated
Directives System.4

In July 2007, the OIG again found that USAID/Iraq had not conducted a contractor
performance review for the LGP contractor’s annual performance period ending in May
2007.5 OIG recommended that USAID/Iraq conduct an evaluation of the contractor’s
performance within 30 days from the issuance of the report; the mission complied by
issuing a finalized evaluation on August 29, 2007. Although technically this action
addressed our prior audit recommendations, USAID has ultimately been unable to fulfill

4
    Audit Report No. E-267-06-003-P, July 10, 2006.
5
    Audit Report No. E-267-07-007-P, July 31, 2007.


                                                                                   13 

the intent of our audit recommendations to provide timely evaluations of contractor
performance. In 2008, the mission was again delinquent in its contractor performance
evaluation, completing it more than 5 months after the end of the performance period.

The delinquency occurred in 2008 because contracting officers redelegated their
responsibility for entering performance reports into the Contractor Performance System
to locally employed staff within the mission. These staff members then entered the
contractor’s performance information into the system as “contracting officers,” which
allowed access to the performance files only to them. When the local staff departed
Iraq, the files could not be accessed and finalized. The issue could have been avoided if
the contracting officers had not delegated their responsibilities to the local staff.

   Recommendation No. 4: We recommend that USAID/Iraq require that the
   contractor performance reviews be prepared promptly by contracting officers and
   not redelegated to other staff members.


Contractor Performance Reviews Should Accurately Reflect Contractor
Performance. According to the Acquisition and Assistance Policy Directive 06-05, Initial
Assessment 1.2.4 (c):

   To maintain his/her credibility and, consequently, the eventual utility of the
   [contractor performance review] for the procurement decision-making processes,
   the initial assessor must compose authoritative, well-written narratives for the
   above data fields that effectively support the ratings specified: stating that
   “deliverables were generally on time” does not effectively support a rating of
   “excellent” for the Timeliness of Performance criterion.

Because an updated performance review was not available when LGPIII was contracted
out, we obtained the most recently completed review, dated August 2007. During our
review, we noted inconsistencies in the review and questioned its accuracy. For
example, in the Timeliness of Performance section of the review, the evaluation stated
that the contractor did not provide all required reports and did not provide a single report
on time. It also stated that “[t]he failure to provide all the deliverables and reports has
hampered the ability of USAID to manage the program and to measure its
effectiveness.” Despite these issues, the performance review provided a “good” rating—
indicating there were no delays, or only minimal ones, that impacted achievements of
contract requirements. That element of the evaluation does not appear to be accurate.

Additionally, in the Quality of Product or Service section, the evaluation rated the
contractor’s performance as “good,” which meant that there were no quality problems, or
only minimal ones, and that the contractor had met the contract’s requirements.
However, the written justification for the “good” rating stated that there were numerous
complaints; moreover, because training material was not translated into English, it was
unavailable to key personnel for review. The evaluation also stated that on average the
contractor could only fill two-thirds of the PRT positions it had been contracted to fill.
These details do not indicate a “good” rating.

The contractor performance review for the performance period ending May 2008 was
completed in November 2008, 1 month after USAID/Iraq had entered into a contract with
the same implementing partner to begin LGPIII. In this evaluation, the contractor’s


                                                                                     14 

Timeliness of Performance was rated “excellent,” indicating that there were no delays
and that the contractor had exceeded the agreed-upon time table. The review also said
the contractor had provided all required reports and deliverables on time. However,
during our audit fieldwork, as identified in appendix III, we noted that the contractor had
met or exceeded only two of LGPII’s eight performance indicators.

We also noted that the rating for the contractor’s Cost Control section was changed from
“fair” to “good,” despite “problems and concerns with the internal controls of
procurements.” There was no explanation or justification as to why the adjustment had
been made, although it appears to have been because of the contractor’s rebuttal.

Without accurate contractor performance reviews, USAID/Iraq risks being unable to
evaluate its options effectively during the selection process for entering into contracts
and taking corrective action to safeguard taxpayer money. Therefore, we are making
the following recommendation:

   Recommendation No. 5:          We recommend that USAID/Iraq establish a
   procedure to ensure that contractor performance reviews prepared by contracting
   officers and contracting officer’s technical representatives are accurately
   supported and represent the actual performance of the contractors.




                                                                                    15 

EVALUATION OF
MANAGEMENT COMMENTS
USAID/Iraq agreed with each of the five audit recommendations contained in the report.
On the basis of the mission's comments, final actions have been taken to address
recommendations 1 and 3, and management decisions have been reached on
recommendations 2, 4, and 5. The status of each recommendation is shown below.

Recommendation No. 1: USAID/Iraq concurred with the recommendation and stated
that the Local Governance Program III (LGPIII) task order requires the contractor to
submit all of its training materials for prior review and approval by USAID/Iraq. The
mission also stated that the contractor had been very diligent in submitting training
courses for the mission’s review in a timely manner. As evidence of its implementation
of the recommendation, USAID/Iraq provided e-mails supporting its review of the
contractor’s eight orientation courses and its subsequent approval of the courses. On
the basis of the mission’s actions, final action had been taken on recommendation 1.

Recommendation No. 2: USAID/Iraq concurred with the recommendation and stated
that LGPIII, in contrast to LGPII, was no longer a big training program. In addition, the
mission said that the number of training courses planned to be furnished over the span
of the entire LGPIII had been reduced from over 100 to fewer than a dozen. In response
to the recommendation, the mission stated that the LGPIII contractor had agreed to
expand the training participant registration form to include language requiring the training
applicants to indicate whether they have been enrolled in this training before. If the
answer is positive, the applicant will have to provide written explanation of why he/she
needs to take the same course again. In addition, the mission said that LGPIII
monitoring and evaluation staff will review the training database quarterly to determine
whether any participants have been taking courses more than once and will report this
information in the quarterly progress reports to the COTR. On the basis of the mission’s
comments, a management decision has been made to address recommendation 2.
Final action can occur once the training registration form has been revised and the
contractor submits evidence that its monitoring and evaluation staff are performing
quarterly reviews of the training database to determine whether participants are
repeating any courses.

Recommendation No. 3: USAID/Iraq concurred with the recommendation. In its
comments, the mission stated that the annual implementation plan for LGPIII under
section B, Target Groups, limited the potential pool of training recipients to provincial
council members and governors and their staff and requested OIG’s concurrence that
the mission had taken final action on the recommendation. On the basis of our review of
the implementation plan, final action has been taken on recommendation 3.

Recommendation No. 4: USAID/Iraq concurred with the recommendation and stated
that the mission had a system in place that identifies all contracting officer technical
representatives (COTRs) and tracks when contractor performance reports (CPRs) are
due. However, the late submission of CPRs will now be reported to respective office
chiefs as well as to the deputy mission director. It also stated that an e-mail would be



                                                                                     16 

sent to all of the mission’s COTRs to notify them of the procedure. In regard to the
redelegation of entering CPR data, the mission said its Office of Acquisition and
Assistance director would send an e-mail to the mission’s contracting officers to inform
them that they cannot redelegate their responsibility for entering CPRs in the contractor
performance review database. On the basis of the mission’s comments, a management
decision has been reached on recommendation 4. Final action can occur once the
mission has notified its COTRs of its new elevation procedure for late CPRs and notified
its contracting officers that they are not allowed to redelegate their responsibility for
entering CPRs in the contractor performance review database.

Recommendation No. 5: USAID/Iraq concurred with the recommendation and
described its procedures to ensure that contractor performance reviews were accurately
supported and represented the actual performance of the contractors. It addition, the
mission said that it would issue a reminder of the mission’s procedures to USAID/Iraq’s
COTRs and office chiefs. On the basis of the mission’s comments, a management
decision has been made to address recommendation 5. Final action can occur once the
mission has notified its COTRs and office chiefs of the contractor performance review
procedures.

USAID/Iraq’s written comments on the draft report are included in their entirety as
appendix II to this report.




                                                                                  17 

                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General/Iraq conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions consistent with our audit objective. We believe that
the evidence obtained provides this reasonable basis.

The purpose of the audit was to determine whether USAID/Iraq’s Local Governance
Program is achieving its intended results and to assess what impact the program has
made. The audit reviewed projects and activities performed from the inception of the Local
Governance Program—Phase II (LGPII) contract in May 2005 through its most recent
performance reporting period ending September 2008.

In planning and performing the audit, we gained an understanding of USAID/Iraq’s
existing management controls and identified and reviewed internal controls related to
administrative requirements of the LGPII contract effective May 9, 2005. We tested
contractor performance in meeting the obligations established in the performance
management plan and adherence to USAID’s Automated Directives System and
Acquisition Regulations, as well the Federal Acquisition Regulation and the Acquisition
and Assistance Policy Directives, as they relate to implementing LGPII.

Fieldwork was performed from September 4, 2008, to February 8, 2009, at the USAID
compound and the contractor’s compound—both within the International Zone in Baghdad,
Iraq. As of February 24, 2009, the LGPII contract had reported an obligation of
approximately $370 million and a disbursement of approximately $312 million.


Methodology
To answer the audit objective, we identified the strategic indicators and corresponding
targets that the contractor was expected to accomplish through the program’s
performance management plan. We examined pertinent documentation such as the
contract and contract modifications, minutes from USAID/Iraq portfolio reviews,
performance management plan, the contractor’s work plans and performance reports,
plus various other reporting deliverables and products identified in the contract. We also
interviewed the prior and current cognizant technical officers (now known as contracting
officer’s technical representatives) responsible for the Local Governance Program along
with numerous representatives from the program’s contractor.

During our fieldwork, we verified results reported as of September 2008 in the
contractor’s semiannual performance monitoring report, released in December 2008.
This verification included obtaining provincial development strategies, copies of
provincial newspapers and Web sites to determine citizen outreach efforts, and
evaluations of provisional council competence.




                                                                                    18 

                                                                            APPENDIX I 



We also reviewed the contractor’s training database and performed analytical
procedures to identify (1) individuals who took training courses more than once, (2)
duplicative training entries, (3) attendance traffic of the offered courses, and (4) the
relevance of the courses to LGPII’s strategic objectives. In addition, a sample of
attendance records was selected randomly to determine the reliability of the contractor’s
database.




                                                                                  19 

                                                                             APPENDIX II 




MANAGEMENT COMMENTS



                                                                              May 6, 2009


To:            Director, Office of Inspector General/Iraq, Gerard Custer

From:          USAID/Iraq, Mission Director, Christopher D. Crowley /s/

Subject:       Management Comments, Audit of USAID/Iraq’s Local Governance
               Program II

References: Draft Audit Report No. E-267-09-00x-P




Thank you for affording the USAID/Iraq Mission an opportunity to respond to the draft of
the audit of USAID/Iraq’s Local Governance Program II Activities. Below is the Mission’s
response to the five (5) recommendations outlined in the draft audit for your
consideration.

We would also like to thank your team who spent a good deal of time evaluating this
issue. We look forward to resolving the five recommendations in a timely fashion.

Background

The objectives of the LGPII activities were to consolidate gains made during the first
Local Governance Program, from 2003 to 2005, and continue to work with Iraqis to
establish and strengthen the conditions, institutions, capacity, and legal and policy
framework for a democratic local governance system.

In carrying out these activities, LGPII focused primarily on training members of provincial
and local councils along with other local government officials.

As part of its fiscal year 2008 annual audit plan, the Office of Inspector General in Iraq
conducted this audit to answer the question whether USAID/Iraq’s local governance
activities achieved the intended results and what the impact had been. The OIG draft
audit report of the Local Governance Program II was provided to the Mission on March
22, 2009.

The Mission recognizes the value as a management tool of this OIG audit, and has


                                                                                    20 

                                                                              APPENDIX II 



examined each finding to determine 1) whether the Mission is in agreement, and 2) what
actions would be undertaken in response to the audit.

Below please find Management Comments laying out what actions have been
undertaken to address the findings and recommendations identified in the subject audit
report.

Recommendation No. 1: We recommend that, under the Local Governance Program -
Phase III, USAID/Iraq specifically review and approve any training course proposed by
its implementing partner to be offered to Iraqi governmental officials.

Action taken:

USAID/Iraq concurs with the recommendation and has taken the following action. The
Task Order for LGP III contains explicit language under section F.2 - Deliverables, which
requires RTI to submit all of its training materials for prior review and approval by
USAID/Iraq. The Contracting Officer’s Technical Representative (COTR) for LGP III
confirmed that as of April 30, 2009, RTI is very diligent in meeting the requirements of
the contract and has been submitting training courses for USAID review in a timely
manner. The Mission requests OIG’s concurrence that final action has been taken on
this recommendation.


Recommendation No. 2: We recommend that USAID/Iraq develop and implement
controls under Local Governance Program - Phase III to ensure that training participants
do not take training courses more than once unless justified.

Action taken:

USAID/Iraq concurs with the recommendation and has taken the following action. The
third phase of USAID’s Local Governance Program, LGP III, is not a continuation of LGP
II. It is a new project within a new context. That context includes a new law - the Law of
Governorates not Incorporated into a Region, or Provincial Powers Act (PPA) and a new
political environment. The main distinction of LGP III is that in contrast to its
predecessor, LGP II, the current project is no longer a big training project. Other than the
initial “orientation” training package, which is due to be delivered within the first two
quarters of 2009, the rest of LGP III technical assistance efforts are intended to be
focused on on-job mentoring/coaching and providing real time consultancy to its
beneficiary provinces. Therefore, the number of training courses planned to be furnished
over the span of the entire LGP III has been reduced from over 100 to less than a dozen.

In addition, the recommendation was raised and discussed with RTI’s project
management, which agreed to expand the training participant registration form to include
language requiring the training applicants to indicate whether they have been enrolled in
this training before. If the answer is positive, the applicant will have to provide written
explanation on why he/she needs to take the same course again. LGP III M&E staff will
also review the training data-base on a quarterly basis to determine whether any
participants have been taking courses more than once and will report this info in the
quarterly progress reports to the COTR. The Mission requests OIG’s concurrence that a
management decision has been made on this recommendation.



                                                                                     21 

                                                                             APPENDIX II 



Recommendation No. 3:            We recommend that USAID/Iraq require its Local
Governance Program—Phase III implementing contractor to develop criteria for
selecting training participants and to implement controls to ensure compliance with the
selection criteria.

Action taken:

USAID/Iraq concurs with the recommendation and has taken the following action. The
Scope of Work as well as the annual implementation plan for LGP III under section B. -
Target Groups state the following: “LGP III will target its assistance to the provincial
councils and the governor. The project may extend its work to the qadaa level following
local elections. Until sub-provincial elections occur, training of nahya and hay level
councils is the responsibility of USAID’s Community Action Program or CAP partners.”
Therefore, the potential pool of recipients of LGP III training/technical assistance is
clearly identified and limited only to Provincial Council Members, Governors and their
staff. The Mission requests OIG’s concurrence that final action has been taken on this
recommendation.


Recommendations: No. 4: We recommend that USAID/Iraq require that the contractor
performance reviews (CPRs) be prepared promptly by contracting officers and not re-
delegated to other staff members

Action taken:

USAID/Iraq concurs with the recommendation and has taken the following action.
USAID/Iraq’s Office of Acquisition and Assistance has an established system in place,
which identifies all COTRs and keeps track of all CPRs and when they are due.
However, late submission of CPRs will now be reported to respective office chiefs as
well as to the Deputy Mission Director. An e-mail will be sent to all of the Mission’s
COTRs reminding them of the evaluation procedure. In regard to re-delegating CPRs,
the Director of the Mission’s Office of Acquisition and Assistance will send an e-mail to
the Mission’s contracting officers informing them that they cannot re-delegate their
responsibility for entering CPRs in the contractor performance review database. The
Mission requests OIG’s concurrence that a management decision has been made on
this recommendation.


No. 5: We recommend that USAID/Iraq establish a procedure to ensure that contractor
performance reviews prepared by contracting officers and contracting officer’s technical
representatives are accurately supported and represent the actual performance of the
contractors.

Action taken:

USAID/Iraq concurs with the recommendation and has developed the following
procedures. Once a CPR is completed by the COTR the respective technical office chief
will conduct an initial quality check to ensure that the CPR is accurate and its statements
are supported by appropriate documentation and records. The next and final quality
control check would take place when the CPR is submitted to the Office of Acquisition
and Assistance (OAA). Once the OAA reviews it and confirms that the CPR is accurate


                                                                                    22 

                                                                      APPENDIX II 



and its statements are well justified and supported by necessary documentation, the
CPR would be entered into the official contractor performance review data-base. A
reminder of this Mission’s procedure will be sent to USAID/Iraq’s COTRs and office
chiefs. The Mission requests OIG’s concurrence that a management decision has been
made on this recommendation.




                                                                             23 

                                                                                                                 APPENDIX III 



                  Table 2. Performance Results Reported in the Semiannual Report as of September 30, 2008,
                                              vs. Actual Results Tested by OIG
                                                                   LGPII’s
                                                LGPII’s           Reported            Results per        Met
        Performance Indicator                 2008 Target          Results             OIG Audit       Target?                  Notes
          Provincial councils (PCs)
          and district councils (DCs)
          that met project criteria for
          functioning during the last 6      15 PCs;           16 PCs;            16 PCs;                           This indicator was accurately
9.A       months                             16 DCs            28 DCs             28 DCs             Yes            reported.
          Provincial councils that
          invested in projects
          according to public
          investment priorities in the
          PDS during the last 6                                                                                     This indicator was accurately
9.B       months                             18 PCs            16 PCs             16 PCs             No             reported.
          Milestones of legislative
          progress related to local
          government interaction
          through the legal framework,
          with national government’s
          impact on existing and newly
          proposed legislations and          Milestones                                                             This indicator was accurately
9.1.A     the legislative process            5 and 6           In progress        Not met            No             reported.
          Provincial councils that
          finalized their PDS for use
          as the province's public                                                                                  This indicator was accurately
9.1.B     investment plan                    18 PCs            18 PCs             18 PCs             Yes            reported.
          Provincial councils in which                                                                              The contractor was only able
          more than 50% of current                                                                                  to provide evidence that 3
          members have                                                                                              PCs satisfied this indicator.
          demonstrated performance                                                                                  Insufficient evidence existed
9.2.A     of key competencies                15 cumulative     6 cumulative       3 cumulative       No             for the rest.
                                                                                                                    2 cities have completed
          Provinces that have used                                                                                  property boundaries in GIS
          GIS capacity to produce city                                                                              and 14 more are in progress,
          maps with utility overlays                                                                                but none have the utility
          that inform planning for                                                                                  overlays as required by the
9.2.B     delivery of essential services     15                16                 0                  No             performance indicator.
          Capital budget funds
          assigned to provincial                                                                                    Indicator not yet met, though
          governments in FY 2006–08          $2.5 billion      60% of $3.34       ~$2 billion                       another 3 months remain
          that were contracted for           assigned for      billion assigned   (60%) assigned                    before the end of Iraq's fiscal
                                                                                               6
9.2.C     projects                           committing        for committing     to contracts       No             year
                                                                                                                    This indicator was accurately
                                                                                                                    reported, but we note that six
                                                                                                                    provinces rely solely on Web
          Subnational councils or                                                                                   sites. Multiple statistics report
          other government offices                                                                                  that an extremely low
          that used mechanisms to                                                                                   percentage of Iraqis have
          solicit citizen input related to                                                                          Internet access, so the
          public policy decisions or                                                                                reported figure may be
9.3.A     issues in the last 6 months        15 PCs            17 PCs             17 PCs             Yes            misleading.




                   6
                       Unaudited. Source: Iraq’s Ministry of Planning and U.S. Embassy Iraq’s Office of Provincial Affairs.


                                                                                                                          24
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
